No. 19-500
In the

Supreme Court of the United States
AMEER SIDDIQUI,
Petitioner,
v.
NETJETS AVIATION, INC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY BRIEF
Christina A. Jump*
Charles D. Swift
Leila E. Mustafa
A lyssa F. Morrison
Constitutional Law Center
for Muslims in A merica
833 East Arapaho Road, Suite 102
Richardson, TX 75081
(972) 914-2507
cjump@clcma.org
Attorneys for Petitioner
* Counsel of Record
294690

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI  . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

The Court Should Consider Whether the
“But For” Causation Standard Applies to
Petitioner’s Retaliation Claims . . . . . . . . . . . . . . . 2
A. This Question Was Raised in the Lower
Courts  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Although not Identical, the Comcast
Corporation v. National Association
of African-American Owned Media
Case Relates to Petitioner’s Retaliation
Claims  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
C. Even If This Issue Was Not Explicitly
Raised Before the Lower Courts, This
Court May Hear It . . . . . . . . . . . . . . . . . . . . . 4

II. A Circuit Split Exists on the Standard
for Eva luat i ng Compa rat ors i n
Employ ment Discr i m i nat ion Cases,
and Petitioner Presented Suff icient
Comparator Evidence  . . . . . . . . . . . . . . . . . . . . . . 5

ii
Table of Contents
Page
A. Conflicts Abound in the Standards
Applied to Evaluate Comparator
Evidence, Both Within the Eleventh
Circuit and Between the Circuits  . . . . . . . . 5
B. Pet it ione r P r o v i de s S u f f i c i e nt
Comparator Evidence  . . . . . . . . . . . . . . . . . . 7
III. T h e D i s t r i c t C o u r t P l a c e d a n
Inappropr iately High Bu rden on
Petitioner for the Summary Judgment
Stage, for Demonstration of Pretext  . . . . . . . . . 9
IV. The Courts Must Evaluate Each Act
of R et a l i at ion R a i s e d by Pl a i nt i f f
Under Title VII and Section 1981  . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF CITED AUTHORITIES
Page
Cases
AMTRAK v. Morgan,
536 U.S. 101 (2002)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Bennett v. Nucor Corp.,
656 F.3d 802 (8th Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 6
Capital Cities Cable v. Crisp,
467 U.S. 691 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
Chambers v. TRM Copy Ctrs. Corp.,
43 F.3d 29 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . 13
Comcast Corp. v.
Nat’l Assoc. of African Am.-Owned Media,
No. 18-1171 (argued Nov. 19, 2019) . . . . . . . . . . . . . . . 3
Cooper v. Southern Co.,
390 F.3d 695 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . . 10
Duignan v. United States,
274 U.S. 195 (1927)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Hollingshead v. Windley,
2008 U.S. Dist. LEXIS 89388
(S.D. Ala. Oct. 31, 2008) . . . . . . . . . . . . . . . . . . . . . . . 10
Humphries v. CBOCS West, Inc.,
474 F.3d 387 (7th Cir. 2007), aff’d, 553 U.S. 442
(2008)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

iv
Cited Authorities
Page
Jackson v. Ala. State Tenure Comm’n,
405 F.3d 1276 (11th Cir. 2005) . . . . . . . . . . . . . . . . . . 10
Lewis v. City of Union City,
918 F.3d 1213 (11th Cir. 2019) . . . . . . . . . . . . . . . . . . . .6
Mitchell v. Toledo Hosp.,
964 F.2d 577 (6th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . 5
Standifer v. Sonic-Williams Motors, LLC,
401 F. Supp. 2d 1205 (N.D. Ala. 2005)  . . . . . . . . . . . 11
Stodola v. Finley & Co.,
2008 U.S. Dist. LEXIS 64748
(N.D. Ind. Aug. 21, 2008)  . . . . . . . . . . . . . . . . . . . . . . 11
Tex. Dep’t of Cmty. Affairs v. Burdine,
450 U.S. 248 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Tri-M Group, LLC v. Sharp,
638 F.3d 406 (3d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . 4
Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Youakim v. Miller,
425 U.S. 231 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Statutes
42 U.S.C. § 1981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
Equal treatment of Muslim pilots requires serious
consideration and judicial care, because of widespread
reactions rooted in fear and stereotypes. The Eleventh
Circuit’s improper application of the law to the claims
brought by Petitioner Ameer Siddiqui (“Petitioner”),
of discrimination and retaliation, results in confusion
and inconsistency as to what a plaintiff must prove at
the summary judgment stage. The Orders of both the
District Court and Appellate Court fail to adequately
credit the evidence presented by Petitioner and place
an improperly high burden on him, effectively holding
that his claims must fail because he did not have direct
evidence of discrimination. This is not what the law
requires of him. Petitioner demonstrated substantial
inconsistencies and weaknesses in the purportedly
non-discriminatory, and changing, reasons asserted by
Respondent NetJets Aviation, Inc. (“Respondent”), as
well as evidence of discriminatory motivation. The facts
identified by Petitioner sufficiently place Respondent’s
asserted reasons in doubt, and a reasonable jury could
find that discrimination and/or retaliation were the
true motivators for Respondent’s actions. Accordingly,
Petitioner respectfully requests that this Court grant his
Petition for a writ of certiorari.

2
ARGUMENT
I.

The Court Should Consider Whether the “But
For” Causation Standard Applies to Petitioner’s
Retaliation Claims
A.

This Question Was Raised in the Lower Courts

Respondent first contends in its Brief in Opposition
(“BIO”) to Appellant’s Petition for Writ of Certiorari (the
“Petition”) that “[r]eview of the first question presented is
unwarranted because Petitioner did not argue below that
the ‘but-for’ causation standard doesn’t apply to retaliation
claims.” BIO at 6-7. Respondent’s argument ignores the
fact that the core of Petitioner’s appeal to the Eleventh
Circuit as well as his Petition to this Court, contends
that the lower courts applied the incorrect standard to
his claims of discrimination and retaliation. And, the
Appellate Court explicitly held that in order to succeed
on a retaliation claim, “the employee must prove that ‘the
desire to retaliate was the but-for cause of the challenged
employment action,’” thereby showing its intention to
apply that framework. Pet. App. A at 10, quoting Univ.
of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 352 (2013).
The Appellate Court’s failure to fully address
Petitioner’s retaliation claims in its ultimate ruling
supports, not weakens, the need for this Court’s review.
The District Court’s cursory dismissal of Petitioner’s
retaliation claims, without fully evaluating each claim
under the appropriate standard, formed the precise basis
for Petitioner’s appeal to the Eleventh Circuit. Respondent
argues that, because the lower courts stopped short of
explaining any determination under that articulated “but

3
for” standard, Petitioner somehow waived that issue for
review before this Court. However, lower courts cannot
waive issues available for review by this Court by simply
failing to address them. Petitioner identified precisely
that failure in his pleadings in the lower courts. See
Capital Cities Cable v. Crisp, 467 U.S. 691, 697-8 (1984)
(considering issue “not specifically passed upon by the
lower court” when the issue was raised previously by
petitioner, and there was no separate need for factual
development needed).
B. Although not Identical, the Comcast Corporation
v. National Association of African-American
Owned Media Case Relates to Petitioner’s
Retaliation Claims
While not identical, the claims currently pending in
Comcast Corporation v. National Association of AfricanAmerican Owned Media1 bear directly on the applicability
of the “but for” standard to retaliation claims under Section
1981 of the Civil Rights Act of 1866.2 Petitioner’s request to
supplement any relevant briefing in accordance with any
holding in that matter is entirely appropriate. Petitioner
specifically conditions his request on whether that future
ruling is applicable. Pet. at fn. 1 (“Petitioner respectfully
requests the right, as applicable, to supplement…”)
(emphasis added). Accordingly, Respondent’s objection to
Petitioner’s request is without merit.

1. Comcast Corp. v. Nat’l Assoc. of African Am.-Owned
Media, No. 18-1171 (argued Nov. 19, 2019).
2. 42 U.S.C. § 1981.

4
C.

Even If This Issue Was Not Explicitly Raised
Before the Lower Courts, This Court May Hear
It

W h i l e P e t i t i o n e r d i s p u t e s R e s p o n d e n t ’s
characterization that this issue is barred because it was
not properly raised before the lower courts, the first case
cited by Respondent for this proposition shows that no
such definitive bar exists. Although the Supreme Court
generally rules only on issues raised in the lower courts,
“the rule is not inflexible.” Youakim v. Miller, 425 U.S.
231, 234 (1976). Rather, “questions not pressed or passed
upon below are reviewed” in exceptional cases. Duignan
v. United States, 274 U.S. 195, 200 (1927); see also,
e.g., Crisp, 467 U.S. at 697 (“this rule is not inflexible,
particularly in cases coming, as this one does, from the
federal courts”); see also Tri-M Group, LLC v. Sharp, 638
F.3d 406, 417-18 (3d Cir. 2011) (allowing the issue where it
“is closely related to arguments that [the parties] did raise
in that court” and “when only an issue of law is raised”
which requires no additional fact-finding).
Both the legal issues and factual circumstances
presented in this matter are exceptional and deserving
of proper analysis. According to data reported by the
EEOC, there were 39,110 charges of retaliation filed in
the year 2019 alone. 3 Establishing a uniform standard
for the burden required in retaliation claims is therefore
of substantial importance. Further, the unusual factual
framework of this case provides a unique opportunity for
3. EEOC, Charge Statistics, available at https://www.eeoc.
gov/eeoc/statistics/enforcement/charges.cfm (last visited Feb. 25,
2020).

5
the Court to articulate the relative burdens carried by
each party in an employment discrimination action. This
case reaches this Court from a federal court of appeals
and involves an issue of substantial importance where the
factual and legal issues necessary for this Court to rule
have been briefed throughout the procedural history of
this case.
II. A Circuit Split Exists on the Standard for Evaluating
Comparators in Employment Discrimination Cases,
and Petitioner Presented Sufficient Comparator
Evidence
A.

Conflicts Abound in the Standards Applied to
Evaluate Comparator Evidence, Both Within
the Eleventh Circuit and Between the Circuits

Respondent asserts that Question Two of the Petition,
addressing the conflicting standards for evaluating a
‘similarly situated individual,’ fails because it focuses on
“inconsequential differences in word choice and labels.”
BIO at 10. This is not the case. As set forth in the Petition,
the level of similarity required by various circuit courts
on comparator evidence is far from settled law, remaining
riddled with competing standards. For example, the Sixth
Circuit stated that “in order to be similarly situated, other
employees must have reported to the same supervisor…,
must have been subject to the same standards governing
performance evaluation and discipline, and must have
engaged in conduct similar to the plaintiff’s.” Mitchell v.
Toledo Hosp., 964 F.2d 577, 586 (6th Cir. 1992) (emphasis
added). The Seventh Circuit, in turn, clarified that
although it had in the past “sometimes stated the similarly
situated requirement in the ‘must’ terms … a more

6
sensitive reading of” that Circuit’s precedent reveals a
more “flexible” standard which looks to the “context of
the case” rather than requiring plaintiffs to satisfy hard
and fast requirements. Humphries v. CBOCS West, Inc.,
474 F.3d 387, 405 (7th Cir. 2007), aff’d, 553 U.S. 442, 45151 (2008) (finding Section 1981 to encompass retaliation
claims). In the Eighth Circuit, by contrast, the “test to
determine whether individuals are similarly situated is
rigorous,” where “comparable employees must … have
engaged in the same conduct.” Bennett v. Nucor Corp.,
656 F.3d 802, 819 (8th Cir. 2011) (emphasis added).
The Eleventh Circuit itself described the state of the
law on similarly situated individuals as “a mess.” Pet. at 11,
citing Lewis v. City of Union City, 918 F.3d 1213, 1218 (11th
Cir. 2019). Respondent is correct that this quote refers to
the Eleventh Circuit’s assessment of the state of its own
relevant law; that acknowledgment further demonstrates
the ambiguity that exists on this point of law, both within
the Eleventh Circuit and in other circuits. Respondent
contends that the circuits are actually in concert on this
subject because, despite the specific language used, they
all look to “nearly identical factors”; this characterization
fails to address the point raised here by Petitioner. BIO at
12. Similar factors in assessing whether the circumstances
faced by one individual are comparable to those of another
do not negate the fact that the law on comparator analysis
varies dramatically from court to court, on the degree
of similarity required in each circuit. This difference in
degree can fundamentally alter the outcome of a case, as
it did here.

7
B. Petitioner Provides Sufficient Comparator
Evidence
Petitioner identified comparators who, while
their conduct was not identical in all respects (nor could
it be, as Petitioner has yet to be given specifics on the
facts surrounding the allegations made against him),
are sufficiently similar to call into doubt Respondent’s
stated reasons for its actions. Respondent contends that
the comparators are so dissimilar as to render them
effectively irrelevant to Petitioner’s circumstances. That
is false. Two of the comparators identified were accused
of making offensive statements on the job, the precise
accusation eventually levied against Petitioner. Those
individuals, however, had their issues resolved fully in
a matter of weeks to months. Petitioner’s lasted three
years. Respondent also argues that the ultimate treatment
of the comparators is irrelevant because, “although
offensive, [the comparators’] comments did not create the
same security concerns as Petitioner’s.” BIO at 15. This
statement itself betrays Respondent’s discriminatory
perspective. Although perhaps distasteful, none of the
statements allegedly made by Petitioner years prior to
any investigation, and only identified after extensive
prompting by Respondent’s investigators, were in any
way threatening, violent, or indicated that his passengers
or fellow crewmembers were ever objectively at any risk
traveling in an aircraft piloted by him.4 And, Respondent
continued to allow Petitioner to fly for nine months after
4. The Chief Pilot’s investigation concluded that “ultimately,
all people interviewed felt that [Petitioner] is not a threat … the
general sentiment [was] that he likes to hear himself talk, but
quickly cuts off when asked to do so.” Doc. 42 at 14; Doc. 42-2 at 89.

8
receiving the initial complaint which purportedly caused
such a “security concern.” NetJets called the FBI about
Petitioner, but had not done so about other pilots. And,
despite claiming the need for deference to the outcome of
the FBI’s inquiry, Respondent failed to act for more than
two years after learning that the FBI determined there
was no reason to investigate Petitioner further. Simply
put, Respondent asks this Court to bless an analysis of
comparator evidence which emphasizes all differences
between the individuals but glosses over all similarities.
The District Court further erred in construing facts
in favor of Respondent and brushing aside evidence
that others had been treated differently: the District
Court made the factual determination that “Plaintiff
made offensive and concerning comments while on
duty, and then lied about making them during the
[pilot review board]”, 5 all of which Petitioner disputes,
despite recognizing that “to be sure, NetJets failed to
expeditiously and efficiently resolve Plaintiff’s matter.”6
The Appellate Court did the same: it recognized that
“NetJets’s arguably ham-handed investigation and
unreasonable delay in resolving the situation could
perhaps lead a jury to conclude that NetJets’s asserted
reasons for those problems—security concerns, [labor]
negotiations, and changes in senior management—were
pretexts for something” 7 but nonetheless concluded
“Siddiqui has not rebutted NetJets’s explanation head-

5. Pet. App. at 41a.
6. Pet. App. at 49a.
7. Pet. App. at 6a (emphasis in original).

9
on.”8 Both lower courts ignored the relevant comparator
evidence presented by Petitioner, and refused to credit
the applicable similarities of those identified comparators
who received more favorable treatment, as is appropriate
for the summary judgment stage.
III. The District Court Placed an Inappropriately High
Burden on Petitioner for the Summary Judgment
Stage, for Demonstration of Pretext
Petitioner argues before this Court, as he did before
the Eleventh Circuit, that the District Court subjected
him to an inappropriately high burden for the summary
judgment stage on his showing of pretext. Respondent
asserts that “although Petitioner couches the alleged
error as application of an improper summary judgment
standard, in reality, he takes issue with the Appellate
Court’s factual conclusions,” and “such a fact driven issue
does not warrant review by” the Supreme Court. BIO at
16. This statement fundamentally misconstrues the proper
focus. First, at the summary judgment stage, courts should
not be making factual conclusions, as they are required
to view the facts presented in the light most favorable to
the non-movant. Next, Petitioner consistently objected
to the lower courts’ interpretation of the law on pretext,
arguing that they did not utilize the proper standard; that
challenge is not to a factual conclusion. Rather, Petitioner
consistently posits that the lower courts made a crucial
legal error, in addition to improperly weighing evidence
in Respondent’s favor at the summary judgment stage.

8. Id. at 8a.

10
Petitioner may satisfy his burden for demonstrating
pretext at this stage “either directly by persuading the
court that a discriminatory reason more likely motivated
the employer or indirectly by showing that the employer’s
proffered explanation is unworthy of credence.” Jackson v.
Ala. State Tenure Comm’n, 405 F.3d 1276, 1289 (11th Cir.
2005) (emphasis added), citing Tex. Dep’t of Cmty. Affairs
v. Burdine, 450 U.S. 248, 256 (1981); see also Hollingshead
v. Windley, No. 07-cv-0599, 2008 U.S. Dist. LEXIS
89388, *48-49 (S.D. Ala. Oct. 31, 2008) (“in order for
[plaintiff’s] claims to withstand summary judgment, her
evidence must reveal such weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in
the employer’s proffered legitimate reasons…that
a reasonable factfinder could find them unworthy of
credence”); see also Cooper v. Southern Co., 390 F.3d 695,
725 (11th Cir. 2004). Respondent represents that nothing
out of the ordinary occurred in the internal handling of
Petitioner’s case. However, Petitioner presented repeated
facts showing inconsistencies in the progression of
reasons offered by Respondent sufficient to question, if
not outright reject, the credibility of those reasons. Both
lower courts recognized as much. See Pet. App. at 6a, 8a,
41a, and 49a (quoted supra). A reasonable juror could
then, based on the facts presented by Petitioner, find that
Respondent’s real motivation was discrimination when
coupled with facts such as investigators inquiring how
many times Petitioner flew to Pakistan on his free time,
what his religious beliefs are, and whether he felt he (a
United States citizen) could work with “Americans” in
light of his views.9 Nonetheless, the lower courts in this
case completely ignored the applicable standard cited
9. Doc. 42-2 at 115-120.

11
above, and determined instead that Petitioner’s claims fail
because he did not put forth enough affirmative evidence
of discrimination
IV. The Courts Must Evaluate Each Act of Retaliation
Raised by Plaintiff Under Title VII and Section 1981
The lower courts in this matter failed to evaluate
each act of retaliation identified by Petitioner as its own
discrete cause of action, improperly deferring instead
to their previous analyses on pretext. See AMTRAK
v. Morgan, 536 U.S. 101, 114 (2002) (“Each incident of
discrimination and each retaliatory adverse employment
decision constitutes a separate actionable ‘unlawful
employment practice’”); see also Standifer v. SonicWilliams Motors, LLC, 401 F. Supp. 2d 1205, 1222 (N.D.
Ala. 2005) (addressing “each adverse employment action
as a separate claim of retaliation”); see also Stodola v.
Finley & Co., No. 05-cv-464, 2008 U.S. Dist. LEXIS 64748,
*1 (N.D. Ind. Aug. 21, 2008). Accordingly, the District
and Appellate courts erred in their respective failures to
analyze each separate adverse employment action on its
own merits and within its own framework.
Compounding this failure, the lower courts further
failed to address at all several adverse acts identified
by Petitioner in support of his retaliation claims. Pet. at
22-23. Both lower courts devoted little time to evaluating
Petitioner’s claims of retaliation, summarily dismissing
them with findings that there was no causal connection
between the protected activities alleged and the adverse
actions taken. Rather than taking the time to evaluate each
claim separately and fully, the District Court summarily
disposed of Petitioner’s retaliation claims without even

12
attempting a pretext analysis, relying on the flawed
analysis applied to his claims of discrimination. Pet. App.
at 51a (“[f]inally, for the reasons discussed above, even if
Plaintiff could establish a prima facie case of retaliation,
he cannot show that NetJets’ reasons for its action were
pretextual”). The Appellate Court adopted that flawed
approach. Pet. App. at 11a. Accordingly, Question Four
is appropriate for this Court’s review as to the need to
evaluate each identified instance of retaliation, with its
own full analysis.
CONCLUSION
The factual underpinnings of this lawsuit resulted in
substantial and lasting damage to Petitioner’s career as a
pilot. This case presents a situation where an anonymous
individual accused a Muslim pilot of unidentified actions;
the company investigated and found nothing, nor did the
FBI, after being called by the company. So the company
questioned the same hand-picked employees, who had
already stated they had no problems working with
Petitioner, at least three times with the same or nearly
identical questions, until someone eventually vaguely
identified politically unpopular statements purportedly
made several years prior. For that, Respondent subjected
Petitioner to a lengthy and blind disciplinary process
that contradicted the governing Collective Bargaining
Agreement and varied dramatically from how all other
employees had been previously disciplined...while
Respondent prevented Petitioner from pursuing his career
for over three years. Petitioner presented significant
circumstantial evidence which sufficiently places the
credibility of Respondent’s proffered explanations in
doubt. The legal questions presented by this Petition go

13
to the heart of what an individual must prove to survive
summary judgment when alleging discrimination and
retaliation, “[b]ecause an employer who discriminates
is unlikely to leave a ‘smoking gun’ attesting to a
discriminatory intent[.]”10 For the reasons set forth above,
Petitioner respectfully requests that this Court grant his
Petition for a Writ of Certiorari.
Respectfully submitted,
Christina A. Jump*
Charles D. Swift
Leila E. Mustafa
A lyssa F. Morrison
Constitutional Law Center
for Muslims in A merica
833 East Arapaho Road, Suite 102
Richardson, TX 75081
(972) 914-2507
cjump@clcma.org
Attorneys for Petitioner
* Counsel of Record

10. Chambers v. TRM Copy Ctrs. Corp., 43 F.3d 29, 37 (2d
Cir. 1994).

